OFFICE OF AUDIT
REGION 5
CHICAGO, IL




        Warren Metropolitan Housing Authority
                   Lebanon, OH

      Section 8 Housing Choice Voucher Program




2013-CH-1005                              AUGUST 30, 2013
                                                        Issue Date: August 30, 2013

                                                        Audit Report Number: 2013-CH-1005




TO:            Shawn Sweet, Director of Public Housing Hub, 5DPH



FROM:          Kelly Anderson, Regional Inspector General for Audit, 5AGA


SUBJECT:       The Warren Metropolitan Housing Authority, Lebanon, OH, Did Not Adequately
               Enforce HUD’s Housing Quality Standards


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final audit report of our audit of the Warren Metropolitan Housing
Authority’s Section 8 program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8M, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(312) 913-8684.




                                                 
                                              August 30, 2013
                                              The Warren Metropolitan Housing Authority,
                                              Lebanon, OH, Did Not Adequately Enforce
                                              HUD’s Housing Quality Standards


Highlights
Audit Report 2013-CH-1005


 What We Audited and Why                     What We Found

We audited the Warren Metropolitan          The Authority did not adequately enforce HUD’s
Housing Authority’s Section 8 Housing       housing quality standards. Specifically, it did not
Choice Voucher program as part of the       ensure that 50 program units met HUD’s minimum
activities in our fiscal year 2013 annual   housing quality standards, and 25 had material
audit plan. We selected the Authority       violations. As a result, the Authority’s households
based on a citizen’s complaint to our       were subjected to health- and safety-related violations,
office. Our objective was to determine      and the Authority did not properly use its program
whether the Authority administered its      funds when it failed to ensure that the units complied
program in accordance with the U.S.         with HUD’s housing quality standards. The Authority
Department of Housing and Urban             disbursed nearly $31,000 for the 25 units that
Development’s (HUD) requirements.           materially failed to meet HUD’s housing quality
                                            standards. We estimate that the Authority can avoid
 What We Recommend                          spending nearly $600,000 in housing assistance
                                            payments over the next year for units that are not
                                            decent, safe, and sanitary.
We recommend that the Director of
HUD’s Cleveland Office of Public
Housing require the Authority to (1)
certify, along with the owners, that the
applicable housing quality standards
violations have been corrected for the
50 units cited in this report; (2)
reimburse its program nearly $31,000
from non-Federal funds for the 25 units
that materially failed; (3) implement
adequate procedures and controls to
ensure that all units meet HUD’s
housing quality standards to prevent
nearly $600,000 in program funds from
being spent on units that are not decent,
safe, and sanitary over the next year;
and (4) implement adequate procedures
and controls to address the issues cited
in this audit report.




                                                   
                           TABLE OF CONTENTS

Background and Objective                                                      3

Results of Audit
      Finding: The Warren Metropolitan Housing Authority Did Not Adequately
               Enforce HUD’s Housing Quality Standards                        4

Scope and Methodology                                                         12

Internal Controls                                                             14

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use          16
B.    Auditee Comments and OIG’s Evaluation                                   17
C.    Federal Requirements                                                    20
D.    OIG Housing Quality Standards Inspection Results                        21




                                            2
                       BACKGROUND AND OBJECTIVE

The Warren Metropolitan Housing Authority is a nonprofit governmental entity, chartered by the
State of Ohio, created in 1973 to provide safe, sanitary, decent, and affordable housing to eligible
low-income residents of Warren County. The Authority’s executive director is appointed by its
board of commissioners and is responsible for coordinating established policies and carrying out
the Authority’s day-to-day operations. As of July 9, 2013, the Authority administered 208 public
housing units and 429 units under its Section 8 program.

The Authority is governed by a five-member board of commissioners. Two members are
appointed by the chief executive officer of the most populous city in the territory included in the
district, in accordance with the last preceding Federal census (currently the mayor of Mason,
OH): one appointee of the chief executive officer for an initial term of 1 year and one appointee
of the chief executive officer for an initial term of 5 years. One member must be appointed by
the Warren County Probate Court for an initial term of 4 years. One member must be appointed
by the Warren County Court of Common Pleas for an initial term of 3 years. One member must
be appointed by the Warren County Board of Commissioners for an initial term of 2 years.
Thereafter, all members of the authority must be appointed for 5-year terms, and vacancies due
to expired terms must be filled by the same appointing powers.

Our audit objective was to determine whether the Authority administered its program in
accordance with the U.S. Department of Housing and Urban Development’s (HUD)
requirements. Specifically, we wanted to determine whether the Authority’s unit inspections
were sufficient to detect housing quality standards violations and provide decent, safe, and
sanitary housing to its residents.




                                                 3
                                RESULTS OF AUDIT


Finding: The Warren Metropolitan Housing Authority Did Not
         Adequately Enforce HUD’s Housing Quality Standards
The Authority did not adequately enforce HUD’s housing quality standards. Of the 65 program
units statistically selected for inspection, 50 did not meet minimum housing quality standards,
and 25 had exigent health and safety violations, multiple material violations that existed before
the Authority’s previous inspections, or a combination of both. The violations occurred because
the Authority lacked adequate procedures and controls to ensure that its program units met
HUD’s housing quality standards. It also failed to exercise proper supervision and oversight of
its program and inspections. As a result, nearly $31,000 in program funds was spent on units
that were not decent, safe, and sanitary. Based on our statistical sample, we estimate that over
the next year, the Authority will pay nearly $600,000 in housing assistance for units with
material housing quality standards violations.


 The Authority Passed Housing
 Units That Did Not Comply With
 HUD’s Housing Quality
 Standards

               From the 89 program units that passed the Authority’s inspections from
               December 2012 through February 2013, we statistically selected 65 units for
               inspection by using data mining software. The 65 units were inspected to
               determine whether the Authority ensured that its program units met HUD’s
               housing quality standards. Our appraiser inspected the 65 units from April 9
               through April 19, 2013.

               Of the 65 units inspected, 50 (77 percent) had a total of 220 housing quality
               standards violations, of which 213 violations predated the Authority’s previous
               inspections. Of these, 25 units containing 156 violations were considered to be in
               material noncompliance since they had exigent health and safety violations,
               multiple violations that predated the Authority’s previous inspections, or a
               combination of both. The following table categorizes the 220 violations in the 50
               units.




                                                4


                                                  
                                                 Number
                                                    of        Number of
                 Category of violations         violations      units
           Security                                 36           23
           Electrical                               29           20
           Heating equipment                        17           16
           Tubs and showers                         16           12
           Floors                                   14           9
           Windows                                  12            8
           Sinks                                    12           10
           Ceilings                                 11            7
           Refrigerators and ranges                 11           10
           Water heaters                            10            9
           Walls                                     9            8
           Stairs, rails, and porches                7            6
           Exterior surfaces                         6            5
           Sites and neighborhoods                   5            5
           Toilets                                   4            4
           Plumbing, sewer, and water
           supply                                    4             4
           Interior surfaces                         3             2
           Interior stairs and rails                 2             2
           Smoke detector                            2             2
           Food preparation and storage              2             2
           Roof and gutters                          2             2
           Foundation                                2             1
           Evidence of infestation                   2             2
           Garbage, debris, and refuge
           disposal                                  2             2
                           Total                    220

        We provided our inspection results to the Director of HUD’s Cleveland Office
        Public Housing and the Authority’s executive director on July 9, 2013. See
        appendix D for a detailed list of our housing quality standards inspection results.

The Inspected Units Had 29
Electrical Violations

        Twenty-nine electrical violations were present in 20 of the Authority’s units
        inspected. The following items are examples of the electrical violations listed in
                                          5


                                           
                          the table: ground fault circuit indicator not operating properly; extension cord ran
                          underneath carpeting; insufficient number of electrical outlets; emergency lighting
                          system inoperative; exposed electrical wiring; electrical panels not properly
                          incased in wall flush to drywall; and exposed high tension electrical wiring,
                          reachable to tenants and children, in a community laundry room facility. The
                          following pictures are examples of the electrical-related violations.

Unit #27: Exposed
electrical wiring




Unit #42: Exposed
high tension electrical
wiring, reachable to
tenants and children,
in building laundry
room facility




                                                           6


                                                             
            The Inspected Units Had 17
            Heating Equipment Violations

                        Seventeen heating equipment violations were present in 16 of the Authority’s
                        units inspected. The following items are examples of the heating equipment
                        violations listed in the table: electrical base board heater safety shield not
                        properly secured; household personal items stored around gas heating equipment;
                        improper installation of dryer venting leading to crawl space, causing lint buildup
                        and a fire hazard; vent system disconnected from dryer; missing drywall in rear
                        wall of closet heater; ventilation that does not allow lint and debris to escape
                        properly, resulting in a fire hazard; and missing safety wall, resulting in dryer lint
                        in the gas meter, heating equipment, and water heater. The following pictures are
                        examples of the heating equipment-related violations.

Unit #6: Household
personal items stored
around gas heating
equipment




                                                          7


                                                            
Unit #40: Missing
safety wall, resulting
in dryer lint
accumulation in the
gas meter, heating
equipment, and water
heater; thus causing a
potential fire hazard




        The Inspected Units Had 16 Tub
        and Shower Violations

                         Sixteen tub and shower violations were present in 12 of the Authority’s units
                         inspected. The following items are examples of the tub and shower violations
                         listed in the table: shower water seal plate not properly secured, allowing water
                         intrusion and possible mildew; tub sides exposed to cracked drywall and peeling
                         paint; tub spout separated from back wall, exposing tile; drywall and studs
                         allowing water intrusion and buildup of mildew; water controls not operating
                         properly, resulting in continual water dripping; fiberglass shower stall cracked
                         and peeling paint; tub porcelain worn with metal protruding from drain; mildew
                         and other pollutants consistently present in amounts high enough to be a
                         continuing health hazard; and missing sections of tub molding. The following
                         pictures are examples of the tub- and shower-related violations.




                                                          8


                                                           
Unit #24: Water valves
not operating properly,
resulting in continual
water dripping; thus
causing deterioration of
the tub surface




Unit #27: Fiberglass
shower stall cracked and
has peeling paint




       The Authority Lacked
       Adequate Procedures and
       Controls

                       The Authority did not adequately enforce HUD’s housing quality standards
                       because it lacked adequate procedures and controls to ensure that its program
                       units met HUD’s requirements. The Authority also failed to exercise proper
                       supervision and oversight of its program and inspections. The Authority’s
                       executive director acknowledged that improvements to the inspection process
                                                         9


                                                         
             were needed. As a result of our audit, the Authority (1) provided its inspection
             staff with an updated housing quality standards manual to be used as a reference,
             (2) discussed the issues identified during the audit with its inspection staff, (3)
             provided housing quality standards training as a refresher course for its inspection
             staff and had an additional staff member certified as a housing quality standards
             inspector, and (4) will revise its policies to include a random sampling of quality
             control units to be reviewed semiannually. Also, these units will be reviewed by
             the executive director or another housing quality standards certified supervisory
             staff person.

             The changes, stated above, should help to improve the Authority’s inspection
             process, if fully implemented.

Conclusion

             The weaknesses described above occurred because the Authority lacked adequate
             procedures and controls. As a result, the Authority’s households were subjected
             to health- and safety-related violations, and the Authority did not properly use its
             program funds when it failed to ensure that the units complied with HUD’s
             housing quality standards. The Authority disbursed $26,299 in program housing
             assistance payments for the 25 units that materially failed to meet HUD’s housing
             quality standards and received $4,225 in program administration fees.

             In accordance with 24 CFR (Code of Federal Regulations) 982.152(d), HUD is
             permitted to reduce or offset any program administrative fees paid to a public
             housing agency if it fails to enforce HUD’s housing quality standards.

             If the Authority continues its implementation of procedures and controls for its
             unit inspections to ensure compliance with HUD’s housing quality standards, we
             estimate that it can avoid spending nearly $600,000 in housing assistance
             payments over the next year for units that are not decent, safe, and sanitary. Our
             methodology for this estimate is explained in the Scope and Methodology section
             of this audit report.

Recommendations

             We recommend that the Director of HUD’s Cleveland Office of Public Housing
             require the Authority to

              1A. Certify, along with the owners, that the applicable housing quality
                  standards violations have been corrected for the 50 units cited in this
                  finding.


                                              10


                                                
 1B. Reimburse its program $30,524 from non-Federal funds ($26,299 for
     program housing assistance plus $4,225 in associated administrative fees)
     for the 25 units that materially failed to meet HUD’s housing quality
     standards.

 1C. Continue its implementation of procedures and controls to ensure that all
     units meet HUD’s housing quality standards to prevent $584,761 in
     program funds from being spent on units that do not comply with HUD’s
     housing quality standards over the next year.

 1D. Continue its implementation of procedures and controls to ensure that
     supervisory quality control inspections are conducted and documented and
     that feedback is provided to the inspectors to correct recurring inspection
     deficiencies and ensure that inspectors conduct accurate and complete
     inspections and consistently apply HUD’s housing quality standards.

We also recommend that the Director of HUD’s Cleveland Office of Public
Housing to

 1E. Review the Authority’s Section 8 management assessment program results
     and consider revising its designation and if warranted conduct a
     confirmatory review of the Authority’s scoring process.




                               11


                                 
                         SCOPE AND METHODOLOGY

We performed our onsite audit work at the Authority’s office at 990 East Ridge Drive, Lebanon,
OH, between November 27, 2012, and April 26, 2013. The audit covered the period October 1,
2010, through September 30, 2012, but was expanded as determined necessary.

To accomplish our objective, we reviewed

              Applicable laws; regulations; HUD program requirements at 24 CFR Parts 5, 35,
               and 982; and HUD’s Housing Inspection Manual 7420.7.

              The Authority’s independent auditor’s report for fiscal years 2009, 2010, and
               2011; policies and procedures; annual contributions contract with HUD; 5-year
               annual plans for calendar years 2010, 2011, and 2012; organizational chart; and
               housing assistance payment registers.

              HUD’s files for the Authority.

We also interviewed the Authority’s employees, HUD staff, and program households.

Using data mining software, we statistically selected 65 of the Authority’s program units to
inspect from the 89 units that passed inspections by the Authority from December 2012 through
February 2013. The 65 units were selected to determine whether the Authority’s program units
met HUD’s housing quality standards. After our inspections, we determined whether each unit
passed, failed, or materially failed. Materially failed units were those units that had one or more
exigent health and safety violations that predated the Authority’s previous inspections, five or
more health and safety violations that predated the Authority’s previous inspections, or a
combination of both. Also, for each unit, we considered the severity of the violations, and we
may have categorized an inspection, which, according to the stated standards, would have
resulted in the inspection’s being categorized as a material failure, as failed. All units were
ranked, and we used auditors’ judgment to determine the material cutoff point.

Based on our review of the statistically selected sample, we found that 25 of the units had
material failures in housing quality standards, although they had recently passed an Authority
inspection. Using a confidence interval of 95 percent, we projected that at least 29.76 percent of
the 89 units that passed inspections during our audit scope had material violations. Extending
this rate to the 429 active units on the Authority’s program, we can say that at least 183 units
would not meet housing quality standards, despite having passed an Authority inspection.

Based on the average housing assistance paid for the 89 properties less a deduction to account for
a statistical margin of error, we can say with a confidence interval of 95 percent that the amount
of monthly housing assistance spent on inadequate units was $113.59. Extending this amount to
the 429 active units on the Authority’s program, at least $48,730 in monthly housing assistance

                                                12


                                                   
payments were made for inadequate units. This amounts to $584,761 in housing assistance paid
per year for substandard units.

The calculation of administrative fees was based on HUD’s administrative fee per household
month for the Authority. The fees were considered inappropriately received for each month in
which the housing assistance was incorrectly paid for units that did not meet HUD’s minimum
housing quality standards. If the questioned period was less than a full month, we limited the
administrative fee to a daily rate based on the number of days during which the unit did not
comply with HUD’s requirements.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. 




                                               13


                                                 
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

                     Reliability of financial reporting – Policies and procedures that
                      management has implemented to reasonably ensure that valid and reliable
                      data are obtained, maintained, and fairly disclosed in reports.

                     Compliance with applicable laws and regulations – Policies and
                      procedures that management has implemented to reasonably ensure that
                      resource use is consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.


                                                 14


                                                   
Significant Deficiency

            Based on our review, we believe that the following item is a significant deficiency:

                   The Authority lacked adequate procedures and controls to ensure compliance
                    with HUD’s requirements regarding housing quality standards inspections
                    (see finding).


Separate Communication of
Minor Deficiencies

                We informed the Authority’s executive director and the Director of HUD’s
                Cleveland Office of Public Housing of minor deficiencies through a
                memorandum, dated August 30, 2013.




                                             15


                                                
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                                                             Funds to be
                  Recommendation                             put to better
                      number              Ineligible 1/         use 2/
                        1B                  $30,524
                        1C                                    $584,761
                       Total                $30,524           $584,761

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if the Authority implements our
     recommendations, it will cease to incur program costs for units that are not decent, safe,
     and sanitary and, instead, will expend those funds in accordance with HUD’s
     requirements. Once the Authority successfully improves its controls, this will be a
     recurring benefit. Our estimate reflects only the initial year of this benefit.




                                             16


                                               
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         17


                           
Ref to OIG Evaluation   Auditee Comments




                         18


                           
                         OIG’s Evaluation of Auditee Comments

Comment 1   The Authority agreed with our finding. We would like to commend the Authority
            for the corrective actions that it has taken as mentioned in this report and the
            Authority’s comments. These actions, if fully implemented, should strengthen its
            housing quality standards inspection policies and procedures.




                                           19


                                             
Appendix C

                           FEDERAL REQUIREMENTS

Regulations at 24 CFR 982.152(d) state that HUD may reduce or offset any administrative fee to
a public housing authority, in the amount determined by HUD, if the public housing authority
fails to perform its administrative responsibilities correctly or adequately under the program (for
example, the public housing authority’s failure to enforce housing quality standards requirements
or conduct annual housing quality standards inspections).

Regulations at 24 CFR 982.401 require that all Section 8 program housing meet the housing
quality standards performance requirements both at commencement of assisted occupancy and
throughout the tenancy.

Regulations at 24 CFR 982.404(a)(1) state that the owner must maintain the unit in accordance
with housing quality standards. (2) If the owner fails to maintain the dwelling unit in accordance
with housing quality standards, the public housing authority must take prompt and vigorous
action to enforce the owner obligations. Public housing authority remedies for such a breach of
the housing quality standards include termination, suspension or reduction of housing assistance
payments, and termination of the housing assistance payments contract. (3) The public housing
authority must not make any housing assistance payments for a dwelling unit that fails to meet
the housing quality standards, unless the owner corrects the defect within the period specified by
the public housing authority and the public housing authority verifies the correction. If a defect
is life threatening, the owner must correct the defect within no more than 24 hours. For other
defects, the owner must correct the defect within no more than 30 calendar days (or any public
housing authority-approved extension). (4) The owner is not responsible for a breach of the
housing quality standards that is not caused by the owner and for which the family is responsible.
(However, the public housing authority may terminate assistance to a family because of a
housing quality standards breach caused by the family).

Regulations at 24 CFR 982.404(b)(1) state that the family is responsible for a breach of the
housing quality standards that is caused by any of the following: (ii) the family fails to provide
and maintain any appliances that the owner is not required to provide but which are to be
provided by the tenant; or (iii) any member of the household or guest damages the dwelling unit
or premises (damages beyond ordinary wear and tear). (2) If a housing quality standards breach
caused by the family is life threatening, the family must correct the defect within no more than
24 hours. For other family-caused defects, the family must correct the defect within no more
than 30 calendar days (or any public housing authority-approved extension). (3) If the family
has caused a breach of the housing quality standards, the public housing authority must take
prompt and vigorous action to enforce the family obligations. The public housing authority may
terminate assistance for the family in accordance with section 982.552.



                                                20


                                                  
     Appendix D

            OIG HOUSING QUALITY STANDARDS INSPECTION
                            RESULTS


                            Total      Total number          Total        Total number of
         Total number     number of     of units that    violations for   housing quality   Total number of
 Unit     of units that   units that     materially     the materially       standards        preexisting
number       passed         failed          failed        failed units       violations        violations
  1                           X                                                   3                3
  2                           X                                                  4                 4
  3                           X                                                   2                2
  4                           X                                                  3                 3
  5                                          X                15                 15                14
  6                                          X                8                   8                7
  7                           X                                                   4                3
  8                           X                                                  3                 2
  9                           X                                                   3                3
  10                          X                                                  2                 2
  11                          X                                                   1                1
  12           X                                                                 0                 0
  13                                         X                4                   4                4
  14           X                                                                 0                 0
  15                          X                                                   1                1
  16           X                                                                 0                 0
  17           X                                                                  0                0
  18                          X                                                  3                 3
  19                          X                                                   1                1
  20           X                                                                 0                 0
  21                                         X                11                 11                10
  22                          X                                                  5                 5
  23                          X                                                   1                1
  24                                         X                13                 13                13
  25                                         X                6                   6                6
  26                          X                                                  6                 6
  27                                         X                13                 13                12
  28                                         X                10                 10                10
  29                          X                                                   4                4




                                                   21


                                                     
                                                             Total        Total number
                             Total      Total number     violations for    of housing
          Total number     number of     of units that         the           quality     Total number of
  Unit     of units that   units that     materially       materially      standards       preexisting
number        passed         failed          failed       failed units     violations       violations
   30                          X                                                 2              2
   31           X                                                               0               0
   32                          X                                                 4              4
   33                                         X                4                 4              4
   34           X                                                                0              0
   35           X                                                               0               0
   36           X                                                                0              0
   37                          X                                                 1              1
   38                          X                                                 1              1
   39           X                                                               0               0
   40                                         X               3                  3              3
   41                                         X               10                10              10
   42                                         X               5                  5              5
   43                                         X               3                  3              3
   44                                         X               1                  1              1
   45           X                                                               0               0
   46           X                                                                0              0
   47                          X                                                 1              1
   48                                         X               16                16              15
   49                                         X               5                  5              5
   50                                         X               3                  3              3
   51                          X                                                 5              5
   52                                         X                1                 1              1
   53                                         X                6                 6              6
   54                          X                                                 2              2
   55                                         X                1                 1              1
   56           X                                                                0              0
   57                                         X                5                 5              5
   58                          X                                                 1              1
   59                                         X                2                 2              2
   60                                         X                3                 3              3
   61           X                                                               0               0
   62                                         X                3                 3              3
   63           X                                                               0               0
   64                                         X                5                 5              5
   65                         X                                                  1              1
 Totals        15             25             25               156              220             213




                                                  22


                                                     
